!

r

APPENDIX
i
I

;

al
APPENDIX
TABLE OF CONTENTS
APPENDICES, Table of Contents

al

Appendix A, United States v. Miles, 923 F.3d 798
(2019), Judgment and Opinion...............
a2
Appendix B, Constitutional and Statutory
Addendum....................................................

al7

Appendix C, Superceding Information.........

al9

Appendix D, Plea Agreement (excerpts)......

a20

Appendix E, Objections to the Pre-sentence
Investigation Report..................................

a23

Appendix F, USCIS Advisory re Visas for
Fiancees of U.S. Citizens.........................

a26

Appendix G, Unclassified State re Using DS-160
for K Visa Applications
a31
Appendix H, USCIS Instructions re Affidavits of
Support.......................................................... a33
Appendix I, USCIS Policy Alert re Marriage
Involving Minors.........................................

a37

Appendix J, Annotated New York Domestic
Relations Law Governing the Validity of
Marriages of Minors.................................... a39
Appendix K, Documents Filed with or Issued by
the INS and Consular Visa Section of the
U.S. Embassy to Cambodia
a42

a2
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
FILED
United States Court of
Appeals
Tenth Circuit
May 3, 2019
Elisabeth A. Shumaker
Clerk of Court
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
No. 18-6119
(D.C. No.
v.
5:06-CR-00096-HE-l)
ALEXANDER CHRISTIAN MILES (W.D. Okla.)
Defendant - Appellant.
JUDGMENT
Before HARTZ, MURPHY, and CARSON,
Circuit Judges.
This case originated in the Western District of Okla­
homa and was argued by counsel.
The judgment of that court is affirmed.
Entered for the Court
/s/ Elisabeth A. Shumaker
ELISABETH A. SHUMAKER, Clerk

a3
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
UNITED STATES OF AMERICA
Plaintiff-Appellee

)
)
)
)

v.

) Case No.
) 18-6119
ALEXANDER CHRISTIAN MILES )
Defendant-Appellant

)
)

Appeal from the United States District Court
for the Western District of Oklahoma
(D.C. No. 5:06-CR-00096-HE-l)
Before HARTZ, MURPHY, and CARSON, Circuit
Judges
HARTZ, Circuit Judge.
Defendant Alexander Christian Miles appeals the
denial of his second petition for a writ of coram nobis.
He pleaded guilty in 2009 to submitting a false
affidavit in connection with an application for a visa
for a 14-year-old girl from Cambodia to whom he was
engaged. He has already unsuccessfully challenged
that judgment in a direct appeal, a motion for relief
under 28 U.S.C. § 2255, and a previous petition for a
writ of coram nobis. Exercising jurisdiction under 28
U.S.C. § 1291, we affirm the district court’s denial of
his second petition because each of its claims for relief

a4
either had been raised by Defendant in earlier
proceedings and rejected by this court, or could have
been raised in those proceedings and was inexcusably
neglected.
I.

BACKGROUND

Defendant, age 43 at the time, married a 14-yearold Cambodian girl, S.K., in a Cambodian wedding
ceremony in October 2001. The previous July he had
applied to the Immigration and Naturalization
Service (INS) for a K-l visa on S.K.’s behalf, and
represented in his affidavit in support of the
application that she was 18 years old. The visa was
granted and he and S.K. moved to New York, where
they were married in December 2001. In February
2002, S.K. applied to the INS for adjustment of status,
and Defendant again lied about her age on his
affidavit in support of that application.
In July 2002, Defendant and S.K. moved to
Oklahoma. Shortly thereafter, federal prosecutors
charged him with violating the Mann Act, 18 U.S.C. §
2423(a), which prohibits transporting a minor across
state lines with intent to engage in sexual activity
contrary to state law. After a jury was empaneled and
sworn, but before any evidence or argument had been
presented to it, the district court granted Defendant’s
motion to dismiss the indictment because it did not
specify the underlying Oklahoma offense — leaving
open the possibility that it was statutory rape, an
offense to which Defendant’s marriage to S.K. would
have provided a complete defense.
The government re-indicted Defendant under the
Mann Act, this time specifying that the underlying
Oklahoma offense was forcible rape. He moved to

a5
dismiss that indictment on double-jeopardy grounds,
but the district court denied the motion and we
affirmed after an interlocutory appeal. See United
States v. Miles (Miles I), 327 F. App’x 797, 798 (10th
Cir. 2009). He then entered into a plea agreement
with the government under which the indictment was
to be dismissed, and he pleaded guilty to an
information charging him with violating 18 U.S.C. §
1001(a)(3) by falsely stating S.K.’s age in the K- 1 visa
application. Unnoticed by the court or the parties,
however, the information stated that the K-l
application had been filed in February 2002 (the date
of the application for adjustment of S.K.’s status)
rather than the true date of July 2001. Nonetheless,
Defendant “himself affirmed both the alleged date and
document in his colloquy with the court establishing
the factual basis for his plea at the plea hearing.”
United States v. Miles {Miles III), 546 F. App’x 730,
731-32 (10th Cir. 2012).
The plea agreement contained a clause waiving
Defendant’s right to “[ajppeal or collaterally challenge
his guilty plea,” and his right to “[ajppeal, collaterally
challenge, or move to modify . . . his sentence as
imposed by the Court and the manner in which the
sentence is determined, provided the sentence is
within or below the advisory guideline range
determined by the Court to apply to this case.” Aplt.
App. at 42. The court imposed a five-year sentence
and sex-offender conditions, Defendant appealed the
imposition of the sex-offender conditions, and we
affirmed the sentence. See United States u. Miles
{Miles II), 411 F. App’x 126, 127-28 (10th Cir. 2010).
In 2011, Defendant filed a pro se § 2255 motion
claiming (1) that he was actually innocent of making

a6
a material false statement to the INS in February
2002, because his wife’s age was not material to the
application for adjustment of status, (2) that his
attorney in the double-jeopardy appeal had been
ineffective, and (3) that if the charge to which he
pleaded had actually been making a false statement
on a K-l visa application for S.K. in February 2002,
his plea had no factual basis and any false statement
was immaterial because he had already obtained a K1 fiancee visa by that time. The district court denied
the motion, and we declined to issue a certificate of
appealability. See Miles III, 546 F. App’x at 736. We
held that the collateral-review waiver in Defendant’s
plea agreement barred any legal challenge to his
guilty plea and, relevant to this appeal, that he was
not “factually innocent of making a false statement on
the K—1 visa application he submitted for his fiancee.”
Id. at 734.
In 2013, after he had served his sentence,
Defendant filed a pro se petition for a writ of coram
nobis under the All Writs Act, 28 U.S.C. § 1651(a). See
United States v. Denedo, 556 U.S. 904, 911 (2009) (“In
federal courts the authority to grant a writ of coram
nobis is conferred by the All Writs Act, which permits
‘courts established by Act of Congress’ to issue ‘all
writs necessary or appropriate in aid of their
respective jurisdictions.’”). “A petition for a writ of
coram nobis provides a way to collaterally attack a
criminal conviction for a person . . . who is no longer
‘in custody’ and therefore cannot seek habeas relief
under 28 U.S.C. § 2255 or § 2241.” Chaidez v. United
States, 568 U.S. 342, 345 n.l (2013). But a remedy is
rarely available. Federal courts are only permitted “to
entertain coram nobis applications in extraordinary

a7
cases presenting circumstances compelling its use to
achieve justice.” Rawlins u. Kansas, 714 F.3d 1189,
1196 (10th Cir. 2013) (internal quotation marks
omitted).
Defendant’s petition asserted that he had thought
his guilty plea was based on making a false statement
on the 2002 adjustment-of-status form rather than the
2001 visa application, that his trial counsel had told
him that was the case, and that he discovered that he
had pleaded guilty to lying on the visa application only
upon reading this court’s decision on his § 2255
motion. The district court denied the petition, and we
affirmed.
See United States v. Miles (Miles IV), 553 F. App’x
846, 849 (10th Cir. 2014). We held that the petition
was procedurally barred because Defendant had
previously “had an adequate remedy under § 2255” for
the claim he was asserting, and that he was not
entitled to the miscarriage-of-justice exception to the
bar because he had not shown his factual innocence.
Id. at 848-49.
Finally, Defendant filed a second petition for a
writ of coram nobis, the one at issue in this appeal. He
claims that he is actually innocent of the falsestatement offense to which he pleaded guilty because
his false statement of S.K.’s age was not material to
either the visa application or the application for
adjustment of status. And he claims that his trial
counsel was ineffective in two respects: (1) for not
fulfilling his duty under Padilla v. Kentucky, 559 U.S.
356 (2010), to adequately inform Defendant of the
immigration consequences of his plea, and (2) for
failing to investigate the facts and law on the
materiality of Defendant’s false statement. The

a8
district court initially treated the petition as a
successive § 2255 motion and dismissed it on that
ground, but we reversed that dismissal in United
States v. Miles (Miles V), 697 F. App’x 601, 602 (10th
Cir.2017), on the ground that it is improper to
recharacterize a petition by a person no longer in
custody as a § 2255 motion. On remand the district
court once again dismissed the petition, this time on
the grounds that it was barred as an abuse of the writ,
was barred by Defendant’s collateral-review waiver,
and in any event did not satisfy the requirements for
a writ to issue. Agreeing in essence with the first
ground, we need not address the others.
II. DISCUSSION
A. General Principles Governing Collateral Attacks
on Convictions
Before filing the coram nobis petition at issue
here, Defendant had appealed his sentence, pursued
relief under § 2255, and sought relief under a prior
coram nobis petition. The question naturally arises
whether there is any limit to how many postconviction
petitions he can file. Are there procedural barriers to
such petitions, or must we always address each issue
he raises?
There is a body of law limiting second or
successive habeas corpus petitions (including
applications under 28 U.S.C. §§ 2241 and 2254 and
motions under § 2255), which are by far the most
common avenues for challenges to convictions after
direct appeals have been exhausted or not pursued.
Although the Supreme Court has consistently
“rejected res judicata in a strict sense as a basis for
dismissing a later habeas action,” it has “made clear

a9
that the prior adjudication [bears] vital relevance to
the exercise of the court’s discretion in determining
whether to consider the petition.” McCleskey v. Zant,
499 U.S. 467, 482 (1991). Some of this law derives
from
statutory
provisions,
particularly
the
Antiterrorism and Effective Death Penalty Act of 1996
(AEDPA), but several principles were developed
through judicial decisions predating AEDPA. See id.
at 489 (“[T]he doctrine of abuse of the writ refers to a
complex and evolving body of equitable principles
informed and controlled by historical usage, statutory
developments, and judicial decisions.”); Stanko v.
Davis, 617 F.3d 1262, 1269 (10th Cir. 2010) (“Long
before AEDPA, and even before the enactment of §
2244, the Supreme Court developed several principles
limiting the review of second or subsequent habeas
petitions.”).
The
successive-use-of-the-writ
doctrine
“authorized a federal court to decline to consider a
habeas petition presenting a claim that was
previously raised and adjudicated in an earlier habeas
proceeding, unless the court determined that hearing
the claim would serve the ends of justice.” Stanko, 617
F.3d at 1269; see id. at n.7. The ends-of-justice
exception had been described as requiring a “colorable
showing of factual innocence,” McCleskey, 499 U.S. at
495, although the test is now formulated to require a
showing that the alleged error “probably has caused
the conviction of one innocent of the crime,” thereby
“implicating a fundamental miscarriage of justice.” Id.
at 494-95.
“Another principle, abuse of the writ, authorized a
court to decline to hear a second or subsequent habeas
petition raising a claim that could have been

alO
presented in an earlier petition but was not.” Stanko,
617 F.3d at 1269. “[I]f a second or subsequent petition
raises a claim that could have been raised in an earlier
petition, the petitioner must establish that the
omission was not the result of inexcusable neglect in
order to proceed on the new claim.” Id. at 1271. In
other words, the petitioner must show “cause for his
failure to raise the claim in an earlier proceeding and
resulting prejudice.” Stanko, 617 F.3d at 1271. “[T]he
cause standard requires the petitioner to show that
some objective factor external to the defense impeded
counsel’s efforts to raise the claim,” or that the claim
had not been raised because counsel had been
“constitutionally ineffective.” McCleskey, 499 U.S. at
493—94 (brackets and internal quotation marks
omitted). This procedural bar also may be overcome if
the petition comes within the miscarriage-of-justice
exception by “mak[ing] a proper showing of actual
innocence.” McQuiggin v. Perkins, 569 U.S. 383, 392
(2013) (internal quotation marks omitted); see Stanko,
617 F.3d at 1271. A “proper showing” to overcome
either bar requires “new evidence [that] shows it is
more likely than not that no reasonable juror would
have convicted the petitioner.” McQuiggin, 569 U.S. at
395 (brackets and internal quotation marks omitted).
“New evidence” is “relevant evidence that was either
excluded or unavailable at trial.” Schlup v. Delo, 513
U.S. 298, 327-28 (1995); see id. at 324 (“To be credible,
such a claim requires petitioner to support his
allegations of constitutional error with new reliable
evidence—whether it be exculpatory scientific
evidence, trustworthy eyewitness accounts, or critical
physical evidence—that was not presented at trial.”).

all
We can think of no reason why these same
restrictions should not apply to petitions for writs of
coram nobis. The writ is not to be granted lightly. Its
availability is limited to “extraordinary cases
presenting circumstances compelling its use to
achieve justice.” Denedo, 556 U.S. at 911 (internal
quotation marks omitted),
As the First Circuit
observed: “The further a case progresses through the
remedial steps available to a criminal defendant, the
stiffer the requirements for vacating a final judgment.
Thus, direct review is more defendant-friendly than
post-judgment review, and an initial habeas petition
is easier for a criminal defendant to litigate than a
successive one. The writ of error coram nobis lies at
the far end of this continuum.” United States v.
George, 676 F.3d 249, 258 (1st Cir. 2012) (citations
omitted).
Indeed, Tenth Circuit precedent already imposes
a bar to coram nobis relief “unless relief under 28
U.S.C. § 2255 was unavailable or would have been
inadequate.” United States v. Payne, 644 F.3d 1111,
1112 (10th Cir. 2011). In other words, a claim pressed
through a coram nobis petition is ordinarily barred if
the petitioner previously raised the claim in a § 2255
motion but was unsuccessful or simply failed to
pursue the claim under § 2255 when petitioner could
have. It is a small, and wholly logical, step to expand
this bar beyond previously available § 2255 motions to
include all previously available postconviction
avenues for relief.
We have done so in a
nonprecedential opinion. See United States v.
Tarango, 670 F. App’x 981, 981 (10th Cir. 2016)
(Gorsuch, J.) (“A writ of coram nobis may not be used
to litigate issues that were or could have been raised

al2
on direct appeal or through collateral litigation,
including a 28 U.S.C. § 2255 motion.”). We now adopt
that proposition here.
Absent those traditional
grounds that have excused successive or abusive
habeas petitions, a petition for writ of coram nobis
must be rejected if the claim was raised or could have
been raised on direct appeal, through a § 2255 motion,
or in any other prior collateral attack on the conviction
or sentence. Our view finds support in decisions from
other circuits. See United States v. Swindall, 107 F.3d
831, 836 n.7 (11th Cir. 1997); United States v.
Camacho-Bordes, 94F.3d 1168, 1172—73 (8th Cir.
1996); United States v. Bartlett, Nos. 90-6345, 906351, 1990 WL 135645, at *1 n * (4th Cir. Sept. 20,
1990). But see United States v. Darnell, 716 F.2d 479,
481 n.5 (7th Cir. 1983)(the abuse-of-the-writ doctrine
does not apply to coram nobis petitions, because the
narrow scope of the writ “ensures that coram nobis
will not be utilized as a substitute for appeal”).
B.

Application to This Case

Defendant’s petition asserts two grounds for
relief: (1) that he is actually innocent of the falsestatement offense to which he pleaded guilty, because
his false statement of S.K’s age was not material1- and
(2) that he received ineffective assistance of counsel in
1 The Supreme Court has “not resolved whether a prisoner may
be entitled to habeas relief based on a freestanding claim of
actual innocence” McQuiggin, 569 U.S. at 391; see also Herrera
v. Collins, 506 U.S. 390, 400 (1993) (“Claims of actual innocence
based on newly discovered evidence have never been held to state
a ground for federal habeas relief absent an independent
constitutional violation occurring in the underlying state
criminal proceeding.”).

al3
connection with his guilty plea, because his trial
counsel did not inform him of potential immigration
consequences of his guilty plea and did not adequately
investigate the factual basis of his guilty plea. Both
are procedurallybarred.
Defendant’s actual-innocence claim was raised
and rejected in prior collateral attacks. In his § 2255
proceeding we held that his falsification of S.K.’s age
in the visa application was a material falsehood and
he was not actually innocent of the charge even if the
date in the information was incorrect. See Miles III,
546 F. App’x at 732-34. And in upholding the
rejection of his first coram nobis petition, we
determined that Defendant clearly understood at the
time of his plea that he was pleading guilty to a false
statement related to the visa application, not the
application for adjustment of status. See Miles IV, 553
F. App’x at 849.
As for Defendant’s first ineffective-assistance
claim, he relies on the Supreme Court’s decision in
Padilla, which postdated his conviction. Perhaps
coram nobis is a proper avenue for relief if a claim is
based on Supreme Court law that was declared after
the defendant had fully served the criminal sentence.
Cf. United States v. Snyder, 871 F.3d 1122, 1127 (10th
Cir. 2017) (“Cause excusing procedural default is
shown if a claim is so novel that its legal basis was not
reasonably available to counsel at the time of the
direct appeal.” (brackets and internal quotation
marks omitted)). But that is not the case here. Padilla
was decided on March 31, 2010, and Defendant filed

al4
his § 2255 motion in 2011. Moreover, the claim could
have been included in his 2013 coram nobis petition.2

2 There is a much more disturbing reason why Defendant’s
Padilla claim fails. Although he is a citizen of Sweden, his
counsel conceded at oral argument that he is also a naturalized
United States citizen. Padilla concerns counsel’s obligation “to
inform [a] noncitizen client that he faces a risk of deportation.”
559 U.S. at 374 (emphasis added). To pursue this claim,
Defendant falsely states in his coram nobis petition and his
affidavit in support of the petition that he is an “alien national.”
His briefs on appeal do not state outright that he is not a citizen,
but his opening brief states that he is a “foreign national,” Aplt.
Br. at 34, his reply brief states that “the government has failed
to provide any proof . . . that [he] is a U.S. Citizen,” Reply Br. at
23, and both briefs continue to press the Padilla claim.
The apparently knowing and material misrepresentations in
Defendant’s filings are potential violations of the rules of
professional conduct for the United States District Court for the
Western District of Oklahoma, and the rules of professional
conduct in California and Nevada, two states in which
Defendant’s counsel, Don P. Chairez, is licensed to practice law.
It appears that Defendant is currently not eligible to practice law
in California for administrative reasons, but these
misrepresentations might justify professional discipline against
him as well. We direct the clerk to forward copies of this opinion
to the State Bar of California and the State Bar of Nevada so that
they can assess whether counsel’s conduct and/or Miles’s conduct
warrants any sanction. See In re Graham, 981 F.2d 1135, 1142
(10th Cir. 1992) (“A court may . . . report misconduct by a[n] . . .
attorney to that attorney’s bar association for the purpose of
instituting disciplinary proceedings.”); Lail v. Apfel, No. 98"
7079, 1999 WL 147305, at *2 (10th Cir. Mar. 18, 1999)
(“[Clontinued misrepresentations to this court. . . may a lead . . .
to ... a referral to the Oklahoma State Bar for possible
disciplinary proceedings.”). Because counsel informed this court
during oral argument that Miles is also a medical doctor, we
direct the clerk to forward copies of this opinion to the Oklahoma
Medical Board, the New York Office of Professional Medical
Conduct, the Arizona Medical Board, and the Medical Board of

al5
It is even clearer that Defendant’s second
ineffective-assistance claim could have been raised
earlier. The matters that he contends his counsel
should have discovered before he pleaded guilty were
all presented in his § 2255 proceedings. He was aware
of everything that he needed to raise the present
ineffective-assistance claim.
To be sure, the procedural bars to Defendant’s
present claims may be overcome in certain
circumstances. But Defendant has not identified any
legitimate ground to do so here. He argues that cause
for his failure to raise his ineffective-assistance-oftrial- counsel claims is present because of (1)
ineffectiveness of trial counsel—in the very respects
that he complains of in his coram nobis petition, (2)
“new developments in law,” Aplt. Br. at 41, and (3)
“extrinsic fraud,” id. at 43. We are not persuaded. He
does not explain how ineffectiveness of trial counsel
kept him from arguing his ineffectiveness claims in
his § 2255 proceedings or his first coram nobis
petition; the cases he cites as “new developments” are
not essential, or even material, to his present claims;
and the evidence of asserted fraud is only the untrue
allegation that the prosecution and the courts
incorrectly characterized his guilty plea as being to his
false statement on the visa application.
Nor can Defendant rely on the actual-innocence
exception to procedural bar. The only new evidence he
puts forward in support of his argument for actual
innocence is 2013 Department of Homeland Security

California, all states in which Miles was licensed to practice
medicine.

al6
guidance document that he claims tends to prove that
a 14-year-old can qualify for a fiancee visa. He argues
that this document establishes that his false
statement of S.K’s age was not material. But we doubt
that this document would have affected our reasoning
in rejecting Defendant’s actual-innocence claim in his
§ 2255 proceeding. See Miles III, 546 F. App’x at 734
(“[I]n assessing the ability of Mr. Miles and his fiancee
to conclude a valid marriage within ninety days of her
arrival for purposes of the K-l visa, the true age of his
fiancee, which would have triggered significant if not
conclusive impediments, was plainly a material
consideration.”). It does not make it “more likely than
not that no reasonable juror would have convicted
him.” Schlup, 513 U.S. at 327.
III. CONCLUSION
We AFFIRM the denial of Defendant’s petition.

al7
APPENDIX B
CONSTITUTIONAL AND STATUTORY
ADDENDUM
The Fifth Amendment to the U.S. Constitution
provides, in relevant parts:
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury *
* * nor be deprived of life, liberty, or property,
without due process of law k k k
The Sixth Amendment to the U.S. Constitution
provides, in relevant parts:
In all criminal prosecutions, the accused shall
enjoy the right k k k to be informed of the
nature and cause of the accusation k k k
The Federal Rules of Criminal Procedure, Rule
7(e), provides:
Amending an Information. Unless an
additional or different offense is charged or a
substantial right of the defendant is
prejudiced, the court may permit an
information to be amended at any time before
the verdict or finding.
28 U.S.C. §2255(a) provides, in relevant parts:
A prisoner in custody under sentence of
a court established by Act of Congress
claiming the right to be released k k k may
move the court which imposed the sentence to
vacate, set aside or correct the sentence.

al8
2 U.S.C. §2255(e) provides:
An application for a writ of habeas corpus in
behalf of a prisoner who is authorized to
apply for relief by motion pursuant to this
section, shall not be entertained if it appears
that the applicant has failed to apply for relief,
by motion, to the court which sentenced him,
or that such court has denied him relief,
unless it also appears that the remedy by
motion is inadequate or ineffective to test the
legality of his detention.
28 U.S.C. §2255(h) provides:
A second or successive motion must be
certified as provided in section 2244 by a panel
of the appropriate court of appeals to
contain—
(1) newly discovered evidence that, if proven
and viewed in light of the evidence as a whole,
would be sufficient to establish by clear and
convincing evidence that no reasonable
factfinder would have found the movant guilty
of the offense; or
(2) a new rule of constitutional law, made
retroactive to cases on collateral review by the
Supreme Court,
that
was
previously
unavailable.
[Emphasis added].

al9
APPENDIX C
SUPERCEDING INFORMATION
THE UNITED STATES ATTORNEY CHARGES:
In or about February of 2002,
— ALEXANDER CHRISTIAN MILES, M.D. knowingly and willfully made and used a false writing
and document knowing the same to contain a materi­
ally false entry, in that, on an affidavit in support
of an application for a K1 Visa by S.K., the defendant
stated that SK was 18 years of age when he knew she
was under 18 years of age. The affidavit was a matter
within the jurisdiction of the Immigration and
Naturalization Service, part of the Executive
Branch of the government of the United States.
All in violation of Title 18, United States Code, Section
1001(a)(3).
JOHN C. RICHTER
United States Attorney
/s/ Randal A. Sengel
RANDAL A. SENGEL
Assistant U.S. Attorney
[Emphasis added].

a20
APPENDIX D
PLEA AGREEMENT
[excerpts]
Introduction
1. This document contains the entire plea agreement
between defendant, Alexander C. Miles, and the
United States through its undersigned attorney. No
other agreement or promise exists, nor may any
additional agreement be entered into unless in
writing and signed by all parties. Any unilateral
modification of this agreement is hereby
rejected by the United States. This agreement
applies only to the criminal violations described and
does not apply to any civil matter or any civil
forfeiture proceeding except as specifically set forth. *
Vf

-k

Guilty Plea
2. Defendant agrees to enter a plea of guilty to a onecount Information charging making false statements
in violation of 18 U.S.C. § 1001(a)(3). To be found
guilty of violating 18 U.S.C. § 1001(a)(3), as charged
in the Information, defendant must admit that, in a
matter within the jurisdiction of the United States, he
knowingly and willfully made or used a false writing
or document, knowing the same to contain a
materially false and fictitious statement or entry.
Thus, the defendant must admit that he knowingly
and willfully made or used a false Affidavit of
Support for an Alien Fiance Visa application for
S.K.; that the Affidavit made a materially false and
fictitious statement that the age of S.K. was eighteen
when he knew she was under eighteen years of age;

a21
and that the Affidavit and Visa application are
matters within the jurisdiction of the Executive
Branch of the Government of the United States.
k

k

k

Waiver of Right to Appeal and Bring a Collateral
Challenge
8. k k k Defendant further understands that Title 28,
United States Code, Section 1291, and Title 18,
United States Code, Section 3742, give him the right
to appeal the judgment and sentence imposed by the
Court. Acknowledging all this, defendant in exchange
for the promises and concessions made by the United
States in this plea agreement, knowingly
and
voluntarily waives his right to:
a. Appeal or collaterally challenge his guilty plea,
sentence and restitution imposed, and any other
aspect of his conviction, including but not limited to
any rulings on pretrial suppression motions or any
other pretrial dispositions of motions and issues;
b. Appeal, collaterally challenge, or move to
modify under 18 U.S.C. § 3582(c)(2) or some other
ground, his sentence as imposed by the Court and the
manner in which the sentence is determined, provided
the sentence is within or below the advisory guideline
range determined by the Court to apply to this case *
* *
k

k

k

12. The defendant waives any claim that venue is not
proper in the Western District of Oklahoma.
Defendant also waives all defenses based on the
statute of limitations with respect to Count 1 of the

a22
Information referenced in paragraph 2 of this
agreement.
k

k

k

[Emphasis added].

a23
APPENDIX E
OBSERVATIONS AND OBJECTIONS TO THE
PRESENTENCE INVESTIGATION REPORT.
Dated September 2, 2009
[Excerpts]
COYLE LAW FIRM
Practice Limited to
Defense of the Citizen Accused
125 Park Avenue, First Floor
Oklahoma City, Oklahoma 73102-9101
Telephone
(405) 232-1988
Facsimile
(405) 272-9859
Marianne Benton Runyon
U.S. Probation Officer
215 Dean A. McGee, Suite 201
Oklahoma City, OK 73102
Re:

United States v. Alexander Christian Miles,
Case No. CR-06-96-HE

Dear Ms. Runyon:
Please find enclosed the Observations and Objections
to the Presentence Investigation Report. Also
important to Dr. Miles' objections is a transcript of a
deposition taken of S.K’s mother, P.O, on April 21,
2006. I have made a copy for you that includes the
color pictures of the wedding between S. K. and Dr.
Miles in Cambodia. A picture is indeed worth a
thousand words!

a24
I appreciate very much your attention to this
matter. Please let me know if you have additional
questions.
Respectfully yours,
Isl John W. Coyle, III
k

k

k

3. While the false statement clearly constituted a
"materially false statement" violation of 18 U.S.C.
1001, it was made for the benefit of S. K . In February
2002, defendant Alexander C. Miles stated in an 1-485
submitted to the INS (now CIS) that his spouse, S. K.,
was born on January 1, 1983, in violation of 18 U.S.C.
1001. The purpose of this statement was to obtain
permanent resident status (a "green card") which
would entitle S. K. to live and work in the United
States, and eventually become a U.S. citizen, based on
S. K. 's bona fide marriage to Alexander C. Miles.
k

k

k

23. In February 2002 Alexander C. Miles filed with the
INS (currently CIS) an application for adjustment of
status from Kl/fiancee visa to permanent resident, an
1-485 accompanied by an affidavit of support, 1-864,
where he knowingly and intentionally misstated that
S. K. Miles was born on January 1, 1983 when he
knew this birth date to have occurred later pursuant
to the representations made to him by S. K. Alexander
C. Miles admits that he made a material
misstatement that influenced the decision to issue an
1-551, "green card" to S. K. Miles, and thus violated
18 U.S.C. 1001.

a25
•ft

ic

24. The false statement in violation of 18 U.S.C. 1001
was made for the benefit of S. K.
In February 2002, Alexander C. Miles stated that his
spouse, S. K. , was born on January 1, 1983, in
violation of 18 U.S.C. 1001, in an 1-485 with
supporting 1-864 filed with the INS. The purpose of
this statement was to obtain permanent resident
status (as evidenced by an 1-551 also known as a
"green card") which would entitle S. K. to live and
work in the United States, and eventually become a
U.S. citizen, based on S. K. Miles' marriage to
Alexander C. Miles. The violation of federal law was
committed solely to benefit S. K. by enabling her to
pursue a better life in the Unites States.

a26
APPENDIX F
Visas for Fiance(e)s of U.S. Citizens
https://www.uscis.gov/family/familv-us-citizens/visasfiancees-us-citizens
If you are a U.S. citizen who wants to bring your
foreign fiance(e) to the United States in order to get
married, you will need to file a Form I-129F, Petition
For Alien Fiance(e). This is the first step to obtaining
a K-l nonimmigrant visa for your fiance(e). The K-l
nonimmigrant visa is also known as a fiance(e) visa.
In order to obtain a K-l fiance(e) visa, you and
your fiance(e) must intend to marry each other within
90 days of your fiance(e) entering the U.S as a K-l
nonimmigrant. Your marriage must be valid, meaning
both you and your fiance(e) have a bona fide intent to
establish a life together and the marriage is not for the
sole purpose of obtaining an immigration benefit.
If your fiance(e) marries you within 90 days of
being admitted to the United States as a K-l
nonimmigrant, he or she may apply for lawful
permanent resident status in the United States (a
Green Card).
If you have already married, plan to marry outside
the United States, or your fiance(e) is already
residing legally in the United States, your spouse or
fiance(e) is not eligible for a fiance(e) visa. Go to the
Bringing Spouses to Live in the United States as
Permanent Residents page for more information
about how to help your foreign national spouse apply
for a Green Card.

a27
Eligibility for Fiance (e) Visas
You may be eligible to bring your fiance(e) to the
United States on a fiance(e) visa if you meet the
following requirements:
•
•

•

•

•

•

You are a U.S. citizen;
You and your fiance(e) intend to marry one
another within 90 days of your fiance(e)’s
admission to the United States on a K-l
nonimmigrant visa;
You and your fiance(e) are both legally free
to marry (this means you both are legally
able to marry in the United States and any
previous marriages have been legally ter­
minated by divorce, death, or annulment);
and
You and your fiance(e) met each other in
person at least once within the 2-year
period before you file your petition. You
may request a waiver of this in-person
meeting requirement if you can show that
meeting in person would:
Violate strict and long-established customs
of your fiance(e)’s foreign culture or social
practice; or
Result in extreme hardship to you, the
U.S. citizen petitioner.

Process for Bringing Your Fiance(e) to the
United States
The process for bringing your fiance(e) to the
United States involves USCIS, the U.S. Department
of State (DOS), and U.S. Customs and Border
Protection (CBP). At each stage in the process,
background and security checks may be conducted on

a28
both you and your fiance(e). This may include checks
in various databases for national security, criminal
history, and other information about you and your
fiance(e). These checks are conducted using
fingerprints, names, or other biographic or biometric
information.
Step 1: PetitionforFiance(e)-USCIS
1. You file Form I-129F, Petition for Alien
Fiance(e) according to the form instructions.
This form asks USCIS to recognize the
relationship between you and your fiance(e).
2. We review your Form I-129F and the
documents you submitted. We may mail you a
request for evidence if we need additional
documentation or information.
3. If you establish your eligibility, we approve
your Form I-129F and recognize the claimed
fiance(e) relationship. Otherwise, we deny
your Form I-129F and notify you of the
reasons for denial.
4. We send the approved Form I-129F to the DOS
National Visa Center (NVC).
For additional information about filing the
petition, see the Form I-129F and form instructions.
Step 2: Visa Application-DOS
1. The NVC forwards the approved Form I129F to the U.S. Embassy or consulate
where your fiance(e) will apply for a K-l
nonimmigrant visa. This is generally the
U.S. Embassy or consulate where your
fiance(e) lives.

a29
2. The U.S. Embassy or consulate notifies you
when the visa interview for your fiance(e) is
scheduled.
3. Your fiance(e) applies for the
K-l
nonimmigrant visa and brings the
required forms and documents to the
visa interview
4. The DOS consular officer determines
whether your fiance(e) qualifies for the
K- 1 nonimmigrant visa.
•

If the consular officer grants the K-l nonimmigrantvisa, it is valid for up to 6months for asingle entry.

•

If the consular officer does not find the rela­
tionship to be bona fide, DOS will not issue a
K-l nonimmigrant visa and instead will return
the Form I-129F to USCIS. Generally, if DOS
returns a FormI-129F to us after it has ex­
pired, we will allow it to remain expired. How­
ever, you may choose to submit a new form I129F.

For additional information about applying for a
visa, see the DOS Nonimmigrant Visa for a Fiance(e)
page.
Step 3: Inspection at a Port of Entry—CBP
If DOS issues a K-l nonimmigrant visa, your
fiance(e) travels to the United States and seeks
admission at a port of entry while the K-l
nonimmigrant visa is valid. As with any visa, a K-l
nonimmigrant visa does not guarantee admission to

a30
the United States. A CBP officer at the port of entry
will make the ultimate decision about whether to
admit your fiance (e).
Step 4: Marriage
If your fiance (e) is admitted as a K-l
nonimmigrant, you and your fiance (e) have 90 days to
marry each other.
Step 5: Adjustment of Status-USCIS
If you marry within 90 days, your fiance(e)
—now your spouse—may apply for a Green Card
by filing Form 1-485, Application to Register
Permanent Residence or Adjust Status.
We review Form 1-485 and the documents your
spouse submitted. We may mail a request for evidence
to your spouse if we need additional documentation or
information.
You and your spouse will usually be required to
appear for an interview.
If you were married for less than two years at the
time the Form 1-485 is approved, USCIS will grant
your spouse conditional permanent resident status
and issue a Green Card valid for 2 years. Your spouse
will need to remove the conditions on his or her
residence by filing Form 1-751, Petition to Remove
Conditions on Residence in the 90 days before his or
her Green Card expires.
For additional information about applying for a
Green Card, see the Form 1-485 and instructions and
the Green Card for Fiance(e) of U.S. Citizen page.
k

k

k

[Emphasis added].

a31
APPENDIX G
UNCLASSIFIED STATE 00140650
SUBJECT: USING DS-160 FOR K VISA
APPLICATIONS
Summary: Effective immediately, the DS-160
Nonimmigrant Visa Electronic Application will
replace the DS-156 Electronic Visa Application form
(EVAF), the DS-156K (Nonimmigrant Fiance
Visa Application), and the paper-based DS-230
Application for Immigrant Visa and Alien
Registration (parts I and II) for processing K-l
and K-2 nonimmigrant visa (NIV) applications.
This message describes the timeline for deployment
and provides guidance to posts during the transition.
End Summary.
WORLDWIDE USE OF DS-160 FOR NEW K VISA
CASES MANDATORY
The DS-160 replaces the DS-156 Electronic Visa Ap­
plication form (EVAF), the DS-156K (Nonimmigrant
Fiance Visa Application), and the paper-based DS-230
Application for Immigrant Visa (IV) and Alien Regis­
tration (parts I and II) for processing K-l and K-2 ap­
plications. K-l and K-2 visas may only be pro­
cessed at IV-processing posts.K-3 and K-4 visas
may be processed at any NIV-issuing post using the
normal NIV processing procedure.
USING DS-160
You may accept K visa applications using the DS160 immediately. Posts must require the DS-160 for
all K visa applications received more than one week
after the date of this message.

a32
As we transition to mandatory use of the DS-160 for
K visas, the following exceptions apply:
-- We will not require DS-160s for beneficiaries of
cases that have already been scheduled for an inter­
view or have been interviewed and are pending addi­
tional documentation or administrative processing.
- For cases received at post prior to receipt of this
guidance, if petitioners have already submitted a DS156, DS-156K, or DS-230, or received instructions to
do so, you should accept those forms. If you have not
yet provided petitioners instructions on how to submit
their applications, you must require the DS-160.
You should not, as a general rule, require the
submission of a DS-160 if a valid, signed, unexpired
DS-156, DS-156K, or DS-230 is already on file and
requiring the DS-160 would result in a 221(g) refusal
for an otherwise issuable case.
- You may not, under any circumstances, accept
DS-260 Immigrant Visa Electronic Application forms
for K visa applications.
Kerry
UNCLASSIFIED STATE 00140650
[Emphasis added].

a33
APPENDIX H
USCIS INSTRUCTIONS REGARDING
AFFIDAVITS OF SUPPORT
[Excerpts]
Last Reviewed/Updated: 06/26/2017,
http s ://www. uscis. gov/greencar d/affidavit-support
Affidavit of Support
An affidavit of support is a document an
individual
signs
to
accept
financial
responsibility for another person, usually a
relative, who is coming to the United States to
live permanently. The person who signs the
affidavit of support becomes the sponsor of the relative
(or other individual) coming to live in the United
States. The sponsor is usually the petitioner of an
immigrant petition for a family member.
An affidavit of support is legally enforceable; the
sponsor's responsibility usually lasts until the family
member or other individual either becomes a U.S.
citizen, or can be credited with 40 quarters of work
(usually 10 years).
The law concerning affidavits of support is
found in Immigration and Nationality Act (INA)
sections 212(a) (4) and 213A. The provisions are
codified in Title 8 of the Code of Federal
Regulations (CFR) at 8 CFR 213a.
Submitting an Affidavit of Support
The following individuals are required by law to
submit a Form 1-864, Affidavit of Support completed
by the petitioner to obtain an immigrant visa or
adjustment of status:

a34
All immediate relatives of U.S. citizens (which
include parents, spouses, and unmarried children
under the age of 21, including orphans) and relatives
who qualify for immigration to the United States
under one of the family based preferences:
First Preference: Unmarried, adult sons and
daughters of U.S. citizens (Adult means 21 years of
age or older)
Second Preference: Spouses of permanent
residents and the unmarried sons and daughters
(regardless of age) of permanent residents and their
unmarried children
Third Preference: Married sons and daughters of
U.S. citizens, their spouses and their unmarried
minor children
Fourth Preference: Brothers and sisters of adult
U.S. citizens, their spouses and their unmarried
minor children
Employment based preference immigrants in
cases only when a U.S. citizen or permanent resident
relative filed the immigrant visa petition, or such
relative has a significant ownership interest (5% or
more) in the entity that filed the petition.
•k

■k

k

Affidavit of Support For Fiance(e). Spouse.
or Child as a “K” Nonimmigrant
If your relative is either a K-l fiance(e), a K3 spouse, or a K-2 or K-4 child of fiance(e) or
spouse, you do not need to submit an affidavit of
support at the time you file your Form I-129F
petition. Instead, you should submit an affidavit
of support at the time that your fiance(e),

a35
spouse, or child adjusts status to permanent
resident after coming to the United States.
Sponsor for Affidavit of Support
If you filed an immigrant visa petition for
your relative, you must be the sponsor. You
must also be at least 18 years old and a U.S.
citizen or a permanent resident. You must have a
domicile in the United States or a territory or
possession of the United States. Usually, this
requirement means you must actually live in the
United States, or a territory or possession, in order to
be a sponsor. If you live abroad, you may still be
eligible to be a sponsor if you can show that your
residence abroad is temporary, and that you still have
your domicile in the United States.
k

k

"k

How to File an Affidavit of Support
You, the sponsor, should complete Form 1-864
when your relative has been scheduled for an
immigrant visa interview with a consular officer
overseas or when your relative is about to submit
an application for adjustment to permanent
resident status with USCIS or with an
Immigration Court in the United States. If you
have a joint sponsor, they must also complete Form I864. If you are using the income of other household
members to qualify, then each household member who
is accepting legal responsibility for supporting your
relative must complete a separate Form I-864A,
Contract Between Sponsor and Household Member.
You are required to provide your U.S. federal
income tax return for the most recent tax year as well
as proof of current employment. If you were not

a36
required to file a tax return in any of these years you
must provide an explanation. Failure to provide the
tax return or evidence establishing that you were not
required to file will delay action on your relative's
application for permanent residence. If this
information is not provided, this will result in denial
of an immigrant visa or adjustment of status.
When you have completed the affidavit of support,
compiled the necessary documentation, and had the
affidavit notarized in the United States or before a
U.S. consular or immigration officer, you should
provide this packet of information to your relative to
submit with his or her application for permanent
resident status. If you are given specific instructions
to file your affidavit of support directly with the
National Visa Center, you should follow those
instructions.
•k

•k

ic

[Emphasis added].

a37
APPENDIX I
POLICY ALERT BY THE USCIS FOR INCLUSION
IN THE ADJUDICATOR’S FIELD MANUAL
U.S. Department of Homeland Security
U.S. Citizenship and Immigration Services
Office of the Director (MS 2000)
Washington, DC 20529-2000
U.S. Citizenship and
Immigration Services
AFM PA-2019-01
POLICY ALERT
U.S. Department of Homeland Security
U.S. Citizenship and Immigration Services
February 15, 2019
Policy Alert (AFM)
SUBJECT: Marriage Involving Minor(s)
Purpose
Citizenship and Immigration Services (USCIS) is
updating the Adjudicator’s Field Manual (AFM) to
revise Chapter 21.3(a)(1)(A), Concurrent Filing of
Form 1-130 and Form 1-485, and add Chapter
21.3(a)(2)(D), Marriage Involving Minor(s). These
updates provide guidance for the adjudication of Form
1-130 spousal petitions involving minor(s).
Background
The Immigration and Nationality Act1 does
not set any minimum age requirements for the
petitioner or beneficiary of a Form 1-130 spousal
petition. The legality of a marriage is generally
governed by the law of the jurisdiction where
the marriage was celebrated. However, a marriage

a38
that is valid in the place of celebration might not be
recognized for immigration purposes if it offends the
strong public policy of the United States or the state
of residence.
These AFM updates highlight the factors officers
should consider when adjudicating a Form 1-130
spousal petition that involves a minor at the time the
marriage was celebrated. This guidance is controlling
and supersedes any prior guidance on the topic.
Policy Highlights
•

•

•

Clarifies that officers should evaluate the
laws of the state of residence to ensure
that the marriage is recognized as valid
in the U.S. state where the couple resides
or will presumably reside and does not violate
the public policy of that state.
Clarifies that marriages that occur without
the full, free, and informed consent of either or
both parties to the marriage are not consid­
ered bona fide for immigration purposes.
Reiterates that the petitioning sponsor
who executes the Form 1-864, Affidavit of
Support Under Section 213A of the INA,
must be at least 18 years of age.

Citation
AFM Chapter 21.3, Petition for a Spouse
1 See Pub. L. 82-414,66 Stat. 163 (June 27, 1952), as
amended.
[Emphasis added].

a39
APPENDIX J
ANNOTATED NEW YORK DOMESTIC
RELATIONS LAW GOVERNING THE VAILIDITY
OF MARRIAGES OF MINORS
McKinney's Consolidated Laws of New York
Annotated
Domestic Relations Law (Refs & Annos)
Chapter 14. Of the Consolidated Laws
(Refs & Annos)
Article 3. Solemnization, Proof and Effect of
Marriage (Refs & Annos)
McKinney's DRL § 25
§ 25. License, when to be obtained
Currentness
The provisions of this article pertaining to the
granting of the licenses before a marriage can be
lawfully celebrated apply to all persons who assume
the marriage relation in accordance with subdivision
four of section eleven of this chapter. Nothing in this
article contained shall be construed to render void by
reason of a failure to procure a marriage license any
marriage solemnized between persons of full age nor
to render void any marriage between minors or with a
minor under the legal age of consent where the
consent of parent or guardian has been given and such
marriage shall be for such cause voidable only as to
minors or a minor upon complaint of such minors or
minor or of the parent or guardian thereof.
Credits
(L.1909, c. 19.)

a40
Editors' Notes
PRACTICE COMMENTARIES
By Alan D. Scheinkman
The statutory provisions for procurement of a
marriage license before solemnization are designed to
promote the general public health and welfare. In
addition, the licensing process provides a definite,
well-chartered procedure for entrance into marriage,
so that parties following the statutory requirements
can have a fair degree of certainty in their marital
status. Nonetheless, the failure of persons over the
age of majority to procure a license will not in itself
render any marriage solemnized between them void.
DRL § 25. Should a person authorized to solemnize a
marriage perform a ceremony between adults in the
state despite the absence of a license, the officiating
person may be subject to criminal prosecution but the
marriage itself would not be invalid for that reason
alone.
Likewise, a marriage in which either or both of
the parties is a minor is not rendered void by the
failure to secure a marriage license. Instead, the
marriage remains voidable. DRL §§ 25, 7. Even
in situations where a minor needs parental
consent in order to secure a marriage license, a
failure
to
comply
with
the
statutory
requirements does not by itself render the
marriage absolutely void. Thus, if the marriage
takes place without a license or takes place
because a license was improperly obtained, the
marriage is voidable only. DRL § 25; Matturro v.
Matturro, 281 App.Div. 695, 117 N.Y.S.2d 523 (2nd

a41
Dept. 1952); People v. Benu, 87 Misc.2d 139, 385
N.Y.S.2d 222 (N.Y.C. Crim. Ct. 1976).
In the event that an applicant makes a false
representation or statement in connection with
the application for the marriage license, that
false statement, even though potentially
punishable as perjury, does not by itself
invalidate the marriage. For example, where a
party makes a false representation as to age,
claiming to be 18 when really 16, the marriage is
not void but merely voidable. See Bays v. Bays, 105
Misc. 492, 174 N.Y.S. 212 (Sup.Ct. Cortland County
1918). On the other hand, if a party represents that he
or she is divorced from a prior spouse who is still alive,
and in fact no valid divorce was obtained, the
marriage would be void as bigamous. DRL § 6.
However, the marriage would be declared void, not by
reason of the false representation inducing the
issuance of a marriage license, but by proof of the
independent fact that the prior marriage is still in
existence.
[Emphasis added].

a42
APPENDIX K
DOCUMENTS FILED WITH OR ISSUED BY THE
INS AND CONSULAR VISA SECTION OF THE
U.S. EMBASSY TO CAMBODIA
July 31. 2001
Dr. Miles submits a Form I-129F Petition for Alien
Fiancee to the INS Vermont Service Center in order
to obtain an 1-797 Notice of Approval granting
permission for his fiancee to apply for a K-l fiancee
visa at the Consular Visa Section of the U.S. Embassy
to Cambodia.
August 15, 2001
The INS Vermont Service Center issues an 1-797
Notice of Approval granting Dr. Miles’ Cambodian
fiancee permission to apply for a K-l visa at the U.S.
Embassy to Cambodia. This Notice of Approval
transfers jurisdiction from the INS and Department of
Justice to the U.S. Embassy to Cambodia and the
Department of State. Consular officers at the visa
sections of U.S. embassies abroad have exclusive
jurisdiction and discretion in deciding whether to
issue a K-visa to an alien beneficiary. It is the U.S.
Consulate in Phnom Penh, Cambodia that issues the
K-l Visa on November 30, 2001, not the INS in
Vermont in July 2001.
October 2001
Dr. Miles marries his Cambodian fiancee in
Phnom Penh in a religious marriage ceremony,
pursuant to parental consent and Cambodian
government permission.

a43
November 2001
Dr. Miles executes an 1-134 Affidavit of Support in
support ofthe DS-156K, K-l Fiancee Visa Application,
executed by his Cambodian wife,
Both these
documents are filed with the Consular Visa Section of
the U.S. Embassy to Cambodia.
y

November 30, 2001
The U.S. Consular Visa Section in Phnom Penh,
Cambodia issues Dr. Miles’ Cambodian wife a K-l
Fiancee Visa allowing her to enter the U.S. for 90 days
to marry Dr. Miles and to apply for adjustment of
status to conditional lawful permanent resident
following the U.S. marriage.
December 28. 2001
Dr. Miles and his Cambodian wife marry for the
second time in New York City Hall on December 28,
2001.
February 17. 2002
Following the December 28, 2001 New York
marriage, Dr. Miles files an 1-864 ‘Affidavit of Support
under Section 213A of the Immigration and
Nationality Act’ in support of his wife’s 1-485
Application for Adjustment of Status.’ The INS
requires only one Affidavit of Support in support of
K-l visa applicants, which is to be filed when the K-l
fiancee applies for adjustment of status to conditional
lawful permanent resident following her marriage to
the U.S. petitioner.

